The Petal 1 Visa® Credit Card Cardholder Agreement

Important disclosures
Rates, fees, and other important information about the Petal 1 VISA® Credit
Card (“Card”) are set forth in these Important Disclosures. The customized
version of these Important Disclosures (the “Customized Disclosures”) that we
provide you prior to your first use of the Card or the related credit card account
are part of the Petal 1 VISA® Credit Card Cardholder Agreement (“Agreement”).

How We Will Calculate Your Balance: We use a method called “average daily
balance (including new purchases).” See the Agreement for more detail.
Variable APR; Daily Periodic Rate: The APR on your Account will be
determined each billing cycle by adding a margin to the Prime Rate (U.S.) as
published in the Money Rates section of The Wall Street Journal (the “Index”) on
the 25th day of the month or the following business day. If the Prime Rate
changes, your new rate will take effect on your next billing period. The margin
which will be added to the Prime Rate for purchases is 16.74% - 26.24%. As of
September 15, 2020 the Prime Rate was 3.25%.
Credit Limit: Your initial credit limit will be between $500-$5,000, based on your
creditworthiness.
Arbitration Clause; Notices: PLEASE REVIEW THE ARBITRATION CLAUSE

AND NOTICES SET FORTH IN EXHIBITS A-C OF THE AGREEMENT.
Petal 1 VISA® Credit Card
Cardholder Agreement
EXHIBIT A TO THE AGREEMENT IS AN ARBITRATION CLAUSE. UNLESS
YOU ARE A “COVERED BORROWER” PROTECTED BY THE MILITARY
LENDING ACT (THE “MLA”) OR UNLESS YOU PROMPTLY REJECT THE
ARBITRATION CLAUSE, IT WILL HAVE A SUBSTANTIAL EFFECT ON YOUR
RIGHTS IN THE EVENT OF A DISPUTE, INCLUDING YOUR RIGHT TO BRING
OR PARTICIPATE IN A CLASS PROCEEDING.
This Agreement governs the Petal 1 VISA® credit card account (“Account”) and
related credit card (“Card”) provided by WebBank, a Utah-chartered, FDICinsured bank located in Salt Lake City, Utah (the “Bank”). This Agreement
includes the Important Disclosures we provided to you after approving you for the
Account (the “Customized Disclosures”), the Arbitration Clause attached as
Exhibit A, the Billing Error Rights Notice attached as Exhibit B, the State Notices
attached as Exhibit C, your credit card application, and, as applicable, the
Privacy Policy, and Risk-Based Pricing Disclosure. In this Agreement, the words
“we,” “us,” and “our” mean the Bank, its successors and assigns, and, for
purposes of the Arbitration Clause, the Related Parties identified in the
Arbitration Clause. The words “you,” “your”, “yours” and “Cardholder” mean the
person who applied for, received and accepted the Account from the Bank.
1. Accepting this Agreement. This Agreement becomes effective and legally
binding when you activate your Card by following the instructions on the
Activation page of www.petalcard.com or a Petal mobile application (“Petal
Website”). You and we agree to comply with, and be bound by, this entire
Agreement. You should retain and carefully review this entire Agreement, and
sign your Card before using it. By completing your application for the Account
(and unless you promptly reject the arbitration clause or are a “covered borrower”
protected by the Military Lending Act), you agree to the Arbitration Clause even if
you do not use the Account or the Card.
2. Purchases. You may use your Account to purchase or lease goods or
services (each, a “purchase”) by presenting your Card or providing to
participating merchants and establishments that honor the Card your Card
number and additional information by any other means (for example, over the
phone, online or through a mobile app). We will not be liable to you (or anyone
else) if any merchant or other person cannot or will not process a purchase
permitted under this Agreement. Unless prohibited by applicable law, we may

from time to time limit the type, number and dollar amount of any purchase, even
if you have sufficient available credit to complete the purchase, and may
terminate or suspend your use of the Card or the Account, with or without notice
to you before or at the time we take such action. Cash advances and balance
transfers are not available under this Agreement.
3. Prohibited Uses of Account. You agree that you will only use the Account for
personal, family and household purposes and will not use the Account for any
unlawful purpose or for the purpose of paying us on this or any other form of
credit account you may have with us. If you use your Card for any such purpose,
we may declare you to be in default under this Agreement and we may block
such transactions and/or terminate your Account, but you still will be liable to us
for all charges relating to such transactions and all other transactions on your
Account at the time it is closed. Further, you agree that you will not allow any
other person to use the Card or Account without our consent. However, your
breach of any of these promises will not affect or limit your liability to us with
respect to your purchases. If you authorize or allow any person to use your
Account, such authorization will be deemed to extend to all purchases by such
person, even if not intended by you, and will continue until you have taken all
steps necessary to prevent any further use of the Account by such person, even
if you have advised us that such person is no longer authorized to use the
Account.
4. Promise to Pay You promise to pay us for all amounts charged to the
Account, including all purchases, interest, and charges charged to your
Account. You are obligated to repay us for all transactions made using
your Card by people you have authorized to use the Card even if their use
of the Card exceeds the authorization which you gave them.
5. Credit Limit; Available Credit.
(a) We have disclosed your initial credit limit in your approval email. We will
disclose your then-current credit limit and available credit on each monthly
statement we send you. We may increase or decrease your credit limit at any
time, on our own initiative or at your request (if we accept such requests). We
may also close your Account or suspend your ability to use the Account at any
time. We will provide any notice required by applicable law if we take any
adverse action on your Account.
(b) At any time, your available credit equals the excess (if any) of your credit limit
over your outstanding Account balance (including principal, fees and interest
charges). You agree not to attempt any purchase that exceeds your available
credit. For purposes of determining your available credit, we do not give effect to

any payment prior to the time we determine that the payment has been made
with sufficient funds. Depending on your payment method, this may take up to 20
days. We are not required to approve any purchase if the amount of the
purchase exceeds your available credit but we may authorize and pay any such
purchase in our absolute discretion. Whenever the outstanding balance of the
Account exceeds your credit limit, you agree to pay us the difference on demand
unless and to the extent that we have reduced your credit limit below your preexisting balance prior to the reduction.
6. Monthly Statements. We will send you a monthly statement shortly after the
end of each monthly billing cycle with any activity, fee or interest charge or an
ending debit or credit balance in excess of $1.00. However, we are not obligated
to send you a monthly statement if we deem your Account to be uncollectible or
applicable law does not require us to send you a monthly statement for other
reasons. Your monthly statements will show, among other matters, the
outstanding balance at the start and end of the billing cycle (that is, the “previous
balance” and “new balance,” respectively); purchases; payments, credits and
adjustments; interest charges and fees; your credit limit and available credit; and
the minimum payment due and payment due date.
7. Interest Charges.
(a) General. We use the “average daily balance (including new purchases)”
method to calculate your interest charges. This means that, each billing cycle, we
determine your interest charges by multiplying the average daily balance (which
is shown on your monthly statements as the “balance subject to interest rate”)
times the daily periodic rate and then by multiplying this amount by the number of
days in the billing cycle.
(b) Grace Period on Purchases.
(i) If your Account balance is $0 at the beginning of a billing cycle or you pay the
entire Account balance as of the beginning of a billing cycle by the payment due
date that falls in such billing cycle, you get a “grace period” and will not be
charged any interest charges for such billing cycle.
(ii) If you do not get a grace period for a billing cycle but you got a grace period
for the immediately preceding billing cycle, we will not charge interest charges on
purchases that were outstanding during such preceding billing cycle to the extent
such purchases are paid by the payment due date that falls in the current billing
cycle.
(iii) If you get a grace period on purchases for a billing cycle on account of a

payment that is dishonored or reversed in the next billing cycle or a credit that is
reversed in the next billing cycle due to the resolution of a billing dispute, we will
charge you in the next billing cycle the interest charges you avoided in the prior
billing cycle due to the dishonored or reversed payment or credit.
(c) Interest Rates.
(i) The daily periodic rate equals the APR divided by 365, truncated at the 11th
decimal place.
(ii) The APR each billing cycle equals the sum of the Margin shown on your
Customized Disclosures and the WSJ Prime Rate, determined as of the second
business day (not weekends or federal holidays) of the same month in which
your billing cycle closes (the “Determination Date”). Accordingly, the APR (and
daily periodic rate) may vary. The “WSJ Prime Rate” is the highest U.S. Prime
Rate as published in the “Money Rates” section of The Wall Street Journal on the
Determination Date (or if The Wall Street Journal does not publish such rate on
such day, the latest prior day it does publish such rate). (If The Wall Street
Journal stops publishing the U.S. Prime Rate in its “Money Rates” section, then
we may substitute another index and margin, in our sole discretion, subject to
applicable law.) Notwithstanding the foregoing, the APR and daily periodic rate
will never exceed the maximum rates permitted by applicable law.
(iii) Unless you qualify for a grace period (see subsection (b)), if and when the
APR increases, more interest charges will accrue. This will result in higher and/or
more payments if you pay the minimum payment due each month. Unless you
qualify for a grace period, if and when the APR decreases, less interest charges
will accrue. This will result in lower and/or fewer payments if you pay the
minimum payment due each month.
(d) Balances Subject to Interest Rate.
(i) The average daily balance (also known as the balance subject to interest rate)
equals the sum of the closing daily Account balances for each day of the billing
cycle, divided by the number of days in the billing cycle.
(ii) If you get a grace period for a billing cycle (see subsection (b)(i)), the Account
balance is treated as $0 for each day in the billing cycle (and the average daily
balance is $0). Otherwise, the closing balance for each day in the billing cycle is
computed as follows:
(A) For each day (including the first day of the billing cycle), we start with the
prior day’s closing balance, if any.

(B) For the first day of the Billing cycle, if you received a grace period for the
immediately preceding billing cycle, we deduct all payments and credits applied
to purchases and posted by the payment due date that falls within the current
billing cycle.
(C) For each day in the billing cycle (including the first day of the billing cycle), we
add any new purchases posted to your Account, we add the interest charges
from the prior day (the prior day’s closing balance times the daily periodic rate),
add any fees charged that day, and subtract any payments or credits. However,
we do not subtract a second time any payments or credits that have already
been subtracted in step (B) above. (This method results in the daily compounding
of interest charges.)
(D) We treat any negative daily balance as $0.
(e) Interest Accrual Periods. We charge interest charges over the following
periods:
(i) If you get a grace period for the billing cycle in which the purchase is posted to
the Account (the “Purchase Cycle”) and for the next billing cycle (the “Next
Cycle”), we charge no interest charges at all.
(ii) If you get a grace period for the Purchase Cycle but not for the Next Cycle, we
charge interest charges from the first day of the Next Cycle through the earlier of:
(1) the day the purchase is repaid in full; or (2) the day before the beginning of
the first billing cycle that comes after the Next Cycle and for which you get a
grace period (the “Interest End Date”).
(iii) If you do not get a grace period for the Purchase Cycle, we charge interest
charges from the day the purchase is posted to the Account through the Interest
End Date.
8. Fees. Subject to applicable law, including the federal Truth in Lending Act and
Regulation Z, you agree to pay the following fees:
(a) Penalty fees.
(i) Each time we do not receive the minimum payment due in full within 3 days of
the payment due date, we will charge you a late fee of $29.00 if we have not
charged (or waived) a late fee within the six immediately preceding billing
cycles. However, we will charge a late fee of $40.00 if we have already charged
(or waived) a late fee within the six immediately preceding billing cycles. We will

never charge a late fee exceeding the minimum payment due that is late.
(ii) Each time a payment on your Account is returned or reversed for any reason
or we must return any check or instrument you send us because it is not signed
or is otherwise incomplete, we will charge you a returned payment fee of $29.00.
However, we will not charge a returned payment fee if we are charging a late fee
with respect to the same minimum payment due and will never charge a returned
payment fee exceeding the related minimum payment due.
(b) Additional fees. We may charge fees for special services you request in
accordance with applicable law.
9. Limits on Interest, Fees and Charges. It is not our intent to charge or collect
any interest, fee or charge in excess of the amount permitted by applicable law. If
any interest, fee or charge is finally determined to be in excess of the amount
permitted by applicable law, we will credit the excess amount against the
outstanding balance in your Account or refund it to you.
10. Payments.
(a) Each month, you must pay at least the minimum payment due shown on your
monthly statement by the “cut-off time” on the payment due date shown on your
monthly statement. The payment due date will be at least 25 days after the date
of the monthly statement and will typically be on the same day of each calendar
month. However, if the payment due date falls on a day we do not receive mail (a
“non-business day”), we will not treat your payment as late for any purpose if we
receive it by the cut-off time on the next day we receive mail (a “business day”).
The “cut-off time” is 8:00 p.m. Eastern Time for payments made online through
the Petal Website or over the phone or 5:00 p.m. Eastern Time if you mail-in a
payment by check or money order.
(b) If the new balance shown on your monthly statement for a billing cycle (the
“Statement Cycle”) is less than $25.00, the minimum payment due in the next
billing cycle (the “Payment Cycle”) equals such new balance. Otherwise, the
minimum payment due equals the sum of: (i) $25.00 or 2% of such new balance
(excluding any interest charges, late fees, and any amount past due), whichever
is greater; and (ii) interest charges for the Statement Cycle; (iii) any late fees;
and (iv) any amount past due at the end of the Statement Cycle.
(c) You agree to make all payments in U.S. dollars in accordance with our
instructions online on the Petal Website, by phone or by a check or money order
drawn on a financial institution located in the U.S. All payments by check or
money order must be mailed or delivered to us at the payment address shown on

the front of your monthly statement. Any payments received after the cut-off time
on a business day or received on a non-business day will be credited on the next
business day. However, credit to your Account may be delayed for up to five
days if we accept a check or money order that is not: (i) received by mail or
messenger service at the payment address on your monthly statement; or (ii)
accompanied by the top portion of your monthly statement. Delayed crediting
may cause you to incur additional fees and interest charges, subject to applicable
law.
(d) Subject to applicable law, we may apply payments and other credits to your
Account in any manner we choose in our sole discretion. We will usually apply
the Minimum Payment first to interest charges and then to balances. Although
your Minimum Payment will be applied in any order at our discretion, payments in
excess of the Minimum Payment will be applied to balances with the highest APR
first and then to lower rate balances in descending order of APR. This means
that balances with higher APRs are reduced before balances with lower APRs for
any amount of your payment that is in excess of your Minimum Payment due.
(e) All credits for payments to your Card are subject to final payment by the
institution on which the payment item was drawn. Depending upon the type of
payment you make, your available credit may not be restored for up to 20 days
after we receive a payment.
(f) You agree not to send us payments marked “paid in full,” “without recourse” or
with similar language. If you send such a payment, we may accept it without
losing any of our rights under this Agreement, including our right to collect the full
amount owed by you. All written communications concerning disputed amounts,
including any check or other payment instrument that indicates that the payment
constitutes “payment in full” of the amount owed or that is tendered with other
conditions or limitations or as full satisfaction of a disputed amount, must be
mailed or delivered to the Notice Address (as defined in Section 18), Attn:
Disputed Payments.
11. Prepayment. At any time, you may pay all or any part of your
outstanding Account balance, without penalty. Payment of more than the
minimum payment due in one billing cycle will not relieve you of the obligation to
pay the entire minimum payment due in subsequent billing cycles.
12. Termination. Subject to applicable law, we may suspend, revoke or cancel
your Account privileges, your right to use the Card or deny any transaction, in our
sole discretion at any time, with or without cause and with or without giving you
notice. Any termination of credit privileges, whether initiated by us or by you, will
not affect any of our rights or your obligations under this Agreement, including

your obligation to repay any amounts you owe us according to the terms of this
Agreement. On our demand or upon termination of credit privileges, you agree to
surrender to us or destroy the Card. If you attempt to use the Card after the
termination of credit privileges (whether or not we have provided notice of such
termination), the Card may be retained by a merchant, ATM or financial
institution where you attempt to use the Card.
13. Default. Subject to applicable law, we may declare you to be in default under
this Agreement if: (a) you fail to pay any minimum payment due on or before the
payment due date; (b) you attempt to or do exceed your credit limit; (c) you make
a payment that is dishonored or reversed; (d) you die or are declared legally or
mentally incompetent; (e) a petition is filed or other proceeding is commenced by
or against you under the Federal Bankruptcy Code or any other federal or state
insolvency laws; (f) you become insolvent or unable to pay your debts; (g) you
provide us with any false or misleading information; (h) you breach any of your
other obligations under this Agreement; (i) you are in default of any other credit
agreement you have with us or with Petal (as defined in Section 16); or (j) we
have any reason to believe you are unwilling or unable to pay your debts.
Idaho, Iowa, Kansas, Maine and South Carolina Residents Only: We may
declare you to be in default if you fail to make a payment as required by this
Agreement (or within 10 days of the time required by this Agreement, for Iowa
residents) or if the prospect of your payment or performance is significantly
impaired (for Iowa residents, if, following an event of default, the prospect of your
payment is materially impaired). We have the burden of establishing the
impairment of such prospect of payment or performance.
Wisconsin Residents: We may declare you to be in default (a) if you permit to
be outstanding an amount exceeding one full payment which has remained
unpaid for more than 10 days after its scheduled due date or deferred due date,
or if you fail to pay the first payment or last payment within 40 days of its
scheduled due date or deferred due date or (b) if you fail to observe any other
provision of this Agreement, the breach of which materially impairs your ability to
pay the amounts due under the Agreement.
14. Remedies. In the event of your default under this Agreement, we may,
subject to applicable law (including any applicable notice requirement): (a)
declare all or any portion of your outstanding Account balance to be immediately
due and payable; (b) instead allow you to repay your Account balance by paying
the minimum payment due each billing cycle, without waiving any rights under
subsection (a); and/or (c) commence a collection action against you and charge
you for any court costs and/or any reasonable attorneys’ fees and costs we are
charged in connection with such action by any attorney who is not our salaried

employee. After a default, interest charges will continue to accrue until your total
Account balance, including accrued interest charges, is paid in full, subject to
applicable law.
15. Delay in Enforcement. We may at any time and in our sole discretion delay
or waive enforcing any of our rights or remedies under this Agreement or under
applicable law without losing any of those or any other rights or remedies. Even if
we do not enforce our rights or remedies at any one time, we may enforce them
at a later date. For example, we may accept late payments or payments that are
marked “payment in full” or with other restrictive endorsements without losing any
of our rights under this Agreement.
16. Servicer. Petal Card, Inc. (“Petal”), along with its partners and service
providers, is the servicer of your Account and Card. In that capacity, Petal may
act on our behalf, perform our obligations or enforce our rights under this
Agreement.
17. Communications and Call Recording. You authorize WebBank and Petal
Card Inc. (one of WebBank’s service providers) and each of WebBank’s and/or
Petal’s joint or independent affiliates, agents, assigns, and service providers
(collectively, the “Messaging Parties”) to use automatic telephone dialing
systems, artificial or prerecorded voice message systems, text messaging
systems and automated email systems, or any system capable of storing and
dialing telephone numbers to deliver messages relating to this Agreement, your
Account, or your relationship with the Messaging Parties more generally
(including but not limited to: messages about , upcoming Payment Due Dates,
missed payments and returned payments) to any telephone number(s) you
provide to the Messaging Parties. You also agree that these messages may
deliver prerecorded and/or artificial voice messages. You understand that
telephone messages may be played by a machine automatically when the
telephone is answered, whether answered by you or someone else, and that
these messages may also be recorded by your answering machine. You also
authorize the Messaging Parties to deliver messages to you via mail or email at
any addresses you supply to them or that they obtain through any legal means.
You understand that anyone with access to your mail, telephone or email
account may listen to or read the messages the Messaging Parties leave or send
you, and you agree that the Messaging Parties will have no liability for anyone
accessing such messages. You further understand that, when you receive a
telephone call, text message or email, you may incur a charge from the company
that provides you with telecommunications, wireless and/or internet services, and
you agree that the Messaging Parties will have no liability for such charges
except to the extent required by applicable law. You expressly authorize the

Messaging Parties to monitor and record your calls with the Messaging Parties. If
any telephone number you have provided to the Messaging Parties changes, or if
you cease to be the owner, subscriber, or primary user of any such telephone
number, you agree to immediately give notice to the Messaging Party who
delivered the messages of such facts so that the Messaging Party can update its
records.
This authorization is part of our bargain concerning this Agreement, and we do
not intend it to be revocable. However, to the extent you have the right to revoke
your consent to communications by autodialed calls and text messages to your
mobile number under applicable law, you may exercise this right by contacting
the applicable Messaging Party directly or by sending a request by email to
support@petalcard.com with the subject line “END COMMUNICATIONS.” You
may opt-out of receiving most of these messages at any time by sending us a
request to support@petalcard.com or by responding “STOP” to any text
message. To stop emails only, you can follow the opt-out instructions included at
the bottom of the Messaging Parties’ emails.
18. Notices and Change in Information. All notices to us must be sent to Petal
Card, Inc., MSC – 166931, P.O. Box 105168, Atlanta, GA 30348-5168, or such
other address we subsequently provide you (the “Notice Address”), Attn: Notices
(or as otherwise set forth in this Agreement). To the extent permitted by
applicable law, any notice you send us will become effective after we have
received it and had a reasonable opportunity to act on such notice. Any written or
electronic correspondence we send to you will become effective when we send it
to you at your mail address (or your email address if you have authorized
electronic communications), in each case as it appears on our records. All
bankruptcy notices and related correspondence to us may be sent to Petal Card,
Inc., MSC – 166931, Attn: Bankruptcy Notice, P.O. Box 105168, Atlanta, GA
30348-5168. You must notify us of any changes to your name, mailing or email
address, or cell phone number within 15 days of such change. You must notify us
of changes to your mailing, email address or cell phone number by updating such
information on the Petal Website. You must notify of us changes to your name by
writing to the Notice Address, Attn: Name Change.
19. Access to Financial Data. While the Account is open, you must provide us
and our service providers access to financial data in all material financial
accounts held in your name (e.g., bank accounts, credit card accounts, etc.) by
inputting your login credentials and linking such accounts on the Petal Website.
Access to your financial data does not give us the right to initiate a preauthorized
transfer; we must obtain such authorization separately, and you are not required
to provide us such authorization as a condition of opening or using this Card. You
promise to keep login credentials up-to-date and to update the linked bank

accounts on the Petal Website as login credentials change or new accounts are
opened. We promise to use the information in such financial accounts in
compliance with our Privacy Policy and all applicable laws.
20. Credit Reporting. You authorize us to obtain information from you and to
make whatever inquiries we consider necessary and appropriate (including
requesting consumer reports from consumer reporting agencies and data from
your bank, wealth manager or other financial services provider) in considering
your Application and for any lawful purpose, including any updates, renewals or
extensions of credit, reviewing or collecting your Account or determining your
eligibility for future credit or other offers that we believe may be of interest to you.
Upon your request to us, we will inform you of the name and address of any
consumer reporting agency that provides us a consumer report relating to
you. We may also furnish information concerning you and your Account to
other creditors, other financial institutions and credit bureaus. Late
payments, missed payments, returned payments or other defaults on your
Account may be reflected in your credit report.
21. Inaccurate Information. You have the right to dispute the accuracy of
information we have reported to a credit bureau. If you think any information
about your Account that we have reported is incorrect, please write us at the
Notice Address, Attn: Credit Reporting. Include your name, address, Account
Number, phone number and a brief description of the issue. If available, please
include a copy of the credit report in question. You may also contact us at the
email or phone number on your statement. We will research your issue and will
let you know if we agree or disagree with you. If we agree with you, we will
contact the consumer reporting agency we reported to and request a correction.
22. Identity Theft. If you believe that you have been the victim of identity theft in
connection with your Account or in connection with any other loan or extension of
credit made by us, you can request an Identity Theft Form by calling toll free 1855-697-3825 or writing to Petal at the Notice Address, Attn: Identity Theft. You
should send us a police report and written statement in the form we provide you
alleging that you are the victim of identity theft for a specific debt. Once we
receive your documentation, we will cease debt collection activity until we have
reviewed the materials, determined that the debt is still collectible, complied with
all obligations described in the Billing Rights Notice below and sent you a written
notice describing the basis for our determination.
23. Military Lending Act. Federal law provides important protections to
members of the Armed Forces and their dependents (“Covered Borrowers”)
relating to extensions of consumer credit. In general, the cost of consumer credit
to a Covered Borrower may not exceed an APR of 36%. This rate must include,

as applicable to the credit transaction or account, the costs associated with credit
insurance premiums, fees for ancillary products sold in connection with the credit
transaction, any application fee charged (other than certain application fees for
specified credit transactions or accounts) and any participation fee charged
(other than certain bona fide and participation fees for a credit card account). To
hear disclosures related to the Military Lending Act, please call this toll-free
number: 1-800-213-5794.
24. Lost or Stolen Cards. If your Card is lost or stolen or if you think someone
may be using your Card or Account without your permission, you must notify us
promptly by calling 1-855-697-3825. You will not be liable for any unauthorized
use that occurs after you notify us. You may, however, be liable for unauthorized
use that occurs before receipt of your notice by us.
25. Governing Law. Except as provided in the Arbitration Agreement below, this
Agreement and your Account are governed by federal law and, to the extent
state law applies, the laws of the State of Utah without regard to its conflicts of
law principles.
26. Severability. Subject to the Arbitration Agreement: (a) if any part of this
Agreement conflicts with applicable law, that law will control, and this Agreement
will be considered changed to the extent necessary to comply with that law; and
(b) if any part of this Agreement is determined by a court of competent
jurisdiction to be invalid, the remainder of this Agreement will remain in effect.
27. Bankruptcy. You promise that you are not a debtor under any proceeding in
bankruptcy, have not consulted a bankruptcy attorney in the past six months and
have no current intention of filing a petition for relief under the United States
Bankruptcy Code. All bankruptcy notices and related correspondence to us must
be sent to Petal at the Notice Address, Attn: Bankruptcy Notice.
28. Notice and Cure. Prior to initiating a lawsuit or arbitration regarding a legal
dispute or claim relating in any way to this Agreement, the Account or the Card
(as more fully defined in the Arbitration Clause, a “Claim”), the party asserting the
Claim (the “Claimant”) must give the other party (the “Defending Party”) written
notice of the Claim (a “Claim Notice”) in accordance with the notice provisions of
this Agreement (see Section 18). Any Claim Notice you send must be addressed
to the Notice Address, Attn: Legal Claim, and must provide your Account Number
and phone number. Any Claim Notice must explain the nature of the Claim and
the relief that is demanded. The Claimant must reasonably cooperate in
providing any information about the Claim that the Defending Party reasonably
requests and must give the Defending Party a reasonable opportunity, not less
than 30 days, to resolve the Claim on an individual basis.

29. Waiver of Right to Class Actions. NO CLASS ACTIONS. YOU AGREE
AND ACKNOWLEDGE THAT PURSUANT TO UTAH CODE ANN. § 70C-4-105
YOU ARE WAIVING YOUR RIGHT TO INITIATE OR PARTICIPATE IN A
CLASS ACTION RELATED TO THIS AGREEMENT.
30. Waiver of Right to Trial by Jury. YOU AND WE ACKNOWLEDGE THAT
THE RIGHT TO TRIAL BY JURY IS A CONSTITUTIONAL RIGHT BUT MAY
BE WAIVED IN CERTAIN CIRCUMSTANCES. TO THE EXTENT PERMITTED
BY LAW. YOU AND WE KNOWINGLY AND VOLUNTARILY WAIVE ANY
RIGHT TO TRIAL BY JURY IN THE EVENT OF LITIGATION ARISING OUT OF
OR RELATED TO THIS AGREEMENT. THIS JURY TRIAL WAIVER SHALL
NOT AFFECT OR BE INTERPRETED AS MODIFYING IN ANY FASHION THE
ARBITRATION CLAUSE, WHICH CONTAINS ITS OWN SEPARATE JURY
TRIAL WAIVER.
31. Entire Agreement. You acknowledge that this Agreement constitutes the
entire agreement between you and us with respect to the Account and the Card.
This Agreement supersedes and may not be contradicted by evidence of any
prior or contemporaneous written or oral communication or understanding
between you and us concerning the Account or the Card. If we offer or provide
rewards in connection with the Account, the disclosures relating to such rewards
are separate and not part of this Agreement.
32. Customer Privacy. Our privacy policy is provided separately in accordance
with applicable law and can be viewed online at
https://www.petalcard.com/privacy-policy.
33. Assignment. We may at any time and without notice to you, sell, pledge or
transfer this Agreement or any Account balances to any party at any time. If we
do so, then the purchaser, pledgee or transferee will succeed to all our applicable
rights and responsibilities. You may not assign or transfer this Agreement or any
of your rights and obligations under this Agreement. Any such assignment or
transfer by you will be void.
34. Change of Terms. Subject to applicable law, we may at any time change,
add to or delete terms and conditions of this Agreement, including interest rates
and this Change of Terms provision. Such changes may be based on our antifraud policies and procedures, your level of compliance with this Agreement, your
credit score, other information contained in your credit report, prevailing
economic conditions and/or any other factors. We will give you notice of any
change, addition or deletion as required by applicable law. As of the effective
date, the changed terms, at our option, will apply to new purchases and the

outstanding balances of your Account, to the extent permitted by applicable law.
35. Special Offers and Payment Plans. At our discretion, we may make special
offers to you at any time. Such offers may apply to all purchases or balances on
your Account, or only to some purchases or balances. We will provide to you the
terms of any special offer and tell you how they differ from this Agreement.
Except as provided in any special offer, the rest of this Agreement will still apply
to your Account. These offers may include payment plans and skip payment
offers. We may make special offers to certain cardholders and not others based
on eligibility criteria established in our sole discretion. The availability of such an
offer to certain cardholders shall not require that the offer be made available to all
cardholders.
36. Recurring Purchases. You may authorize a merchant to initiate purchases
on a recurring basis to your Account. Upon the issuance by us of a new Card
with a new Account number or expiration date, you may need to provide the
merchant with such updated information in order to continue the recurring
transactions. However, you authorize us to provide updated information to the
merchant at our discretion. You must contact the merchant if you want to cancel
automatic billing.
37. Check Conversion Notification; Electronic Check Re-Presentment If you
provide a check as payment, you authorize us either to use information from your
check to make a one-time electronic fund transfer from your bank account or to
process the payment as a check transaction. When we use information from your
check to make an electronic funds transfer, funds may be withdrawn from your
bank account as soon as the same day we receive your payment, and you will
not receive your check back from your financial institution. In the event a check is
returned unpaid for insufficient or uncollected funds, we may re-present the
check electronically.
38. Foreign Currency Transactions. If you make a transaction using your
Account in a foreign currency (including, for example, online purchases from a
merchant located outside of the U.S.), the credit card association will convert any
transaction in foreign currency into U.S. dollars using an exchange rate for the
applicable central processing date that is (1) selected by the association from the
range of rates available in wholesale currency markets, which rate may vary from
the rate the association receives, or (2) the government mandated rate. The
conversion rate you get may differ from the rate on the transaction date or the
posting date, and from the rate that the credit card association gets. A merchant
or other third party may convert a transaction into U.S. dollars or another
currency, using a rate they select, before sending it to the credit card association.

39. Headings. The section headings of this Agreement are inserted only for
convenience and are in no way to be construed as substantive parts of this
Agreement.
ARBITRATION CLAUSE—EXHIBIT A
We have put this Arbitration Clause (“Clause”) in question and answer form to
make it easier to understand. However, this Clause is part of this Agreement and
is legally binding. For purposes of this Clause, our Notice Address is: Petal Card,
Inc., Attn: Petal Legal Department, MSC – 166931, P.O. Box 105168, Atlanta,
GA 30348-5168.
Background and Scope.
Question
Short Answer
Futher Detail

What is arbitration?
An alternative to a court case
In arbitration, a third party arbitrator (“TPA”) resolves “Claims” (as defined below) in a
hearing. It is less formal than a court case.
Is it different from court and jury trials?
Yes
The hearing is private. There is no jury. It is usually less formal, faster and less
expensive than a lawsuit. Pre-hearing fact finding (called “discovery”) is limited. Appeals
are limited. Courts rarely overturn arbitration awards.
Can you opt-out of this Clause?
Yes, within 30 days
If you do not want this Clause to apply, you must send us a signed notice within 30
calendar days after you agree to this Agreement. You must send the notice in writing
(and not electronically) to our Notice Address, Attn. Arbitration Opt-Out Notice. Provide
your name, address and date. State that you “opt out” of the arbitration clause.
What is this Clause about?
The parties' agreement to arbitrate Claims
Unless you are a member of the Armed Forces or a dependent of such a member,
protected by the MLA (a “Covered Borrower”) or unless you opt out, you and we agree
that any party may elect to arbitrate or require arbitration of any "Claim" as defined
below.
Who does the Clause cover?
You, us, Petal and certain "Related Parties"
This Clause governs you, us and our “Related Parties": (1) Petal; (2) our and Petal’s
parents, subsidiaries, affiliates, assigns and successors; (3) employees, directors,
officers, shareholders, members and representatives of ours or such other entities; and
(4) any person or company that is involved in a Claim you pursue at the same time you
pursue a related Claim against the Bank or Petal. However, this Clause does not
apply if you are a Covered Borrower.

What Claims does the Clause cover?
All Claims (except certain Claims about this Clause)
This Clause governs all “Claims” that would usually be decided in court and are
between the Bank or any Related Party and you. In this Clause, the word “Claims” has
the broadest reasonable meaning. It includes contract and tort (including intentional tort)
claims and claims under constitutions, statutes, ordinances, rules and regulations. It
includes all claims even indirectly related to the Card or Account, your application for
the Account, this Agreement or our relationship with you. It includes claims related to
collections, privacy and customer information. It includes claims related to the validity in
general of this Agreement. However, it does not include Claims about the validity,
coverage or scope of this Clause or any part of this Clause. All such Claims are
for a court and not the TPA to decide.
Who handles the arbitration?
Usually AAA or JAMS
Arbitrations are conducted under this Clause and the rules of the arbitration company in
effect at the time the arbitration is commenced. However, arbitration rules that conflict
with this Clause do not apply. The arbitration company will be either:
-- The American Arbitration Association ("AAA"), 1633 Broadway, 10th Floor, New York,
NY 10019, www.adr.org.
-- JAMS, 620 Eighth Avenue, 34th Floor, New York, NY 10018, www.jamsadr.com.
-- Any other company picked by agreement of the parties.
If all the above options are unavailable, a court will pick the arbitration company. No
arbitration brought on a class basis may be administered without our consent by
any arbitration company that would permit class arbitration under this
Clause. The TPA will be selected under the arbitration company's rules. However, the
arbitrator must be a lawyer with at least ten years of experience or a retired judge
unless you and we otherwise agree.
Can Claims be brought in court?
Sometimes
You or we may bring a lawsuit if the other party does not demand arbitration. We will not
demand arbitration of any lawsuit you bring as an individual action in small-claims court.
However, we may demand arbitration of any appeal of a small-claims decision or any
small-claims action brought on a class basis.
Are you giving up any rights?
Yes
For Claims subject to this Clause, you give up your right to:
1. Have juries decide Claims.
2. Have courts, other than small-claims courts, decide Claims.
3. Serve as a private attorney general or in a representative capacity.
4. Join a Claim you have with a Claim by other consumers.
5. Bring or be a class member in a class action or class arbitration.

We also give up the right to a jury trial and to have courts decide Claims you wish
to arbitrate.
Can you or another consumer start class arbitration?
No
The TPA is not allowed to handle any Claim on a class or representative basis. All
Claims subject to this Clause must be decided in an individual arbitration or an
individual small-claims action. This Clause will be void if a court rules that the TPA can
decide a Claim on a class basis and the court's ruling is not reversed on appeal.
What happens if part of this Clause cannot be enforced?
It depends.
If any portion of this Clause cannot be enforced, the rest of this Clause will continue to
apply, except that:
(A) If a court rules that the TPA can decide a Claim on a class or other representative
basis and the court's ruling is not reversed on appeal, only this sentence will apply and
the remainder of this Clause will be void. AND
(B) If a party brings a Claim seeking public injunctive relief and a court determines that
the restrictions in this Clause prohibiting the TPA from awarding relief on behalf of third
parties are unenforceable with respect to such Claim (and that determination becomes
final after all appeals have been exhausted), the Claim for public injunctive relief will be
determined in court and any individual Claims seeking monetary relief will be
arbitrated. In such a case the parties agree to request that the court stay the Claim for
public injunctive relief until the arbitration award pertaining to individual relief has been
entered in court.
In no event will a Claim for class relief or public injunctive relief be arbitrated.
What law applies?
The Federal Arbitration Act (“FAA”)
This agreement involves interstate commerce. Thus, the FAA governs this Clause. The
TPA must apply substantive law consistent with the FAA. The TPA must honor statutes
of limitation and privilege rights. Punitive damages are governed by the constitutional
standards that apply in judicial proceedings.
Will anything you do make this Clause ineffective?
No
This Clause stays in force even if: (1) this Agreement ends; or (2) we transfer or assign
our rights under this Agreement.

PROCESS

Question
Short Answer

Futher Detail
What must a party do before starting a lawsuit or arbitration?
Send a written Claim Notice and work to resolve the Claim
Before starting a lawsuit or arbitration, the Claimant must comply with Section 28 of this
Agreement, captioned “Notice and Cure.”
How does arbitration start?
Mailing a notice
The hearing is private. There is no jury. It is usually less formal, faster and less
expensive than a lawsuit. Pre-hearing fact finding (called “discovery”) is limited. Appeals
are limited. Courts rarely overturn arbitration awards.
Will any hearing be held nearby?
Yes
The TPA may decide that an in-person hearing is unnecessary and that he or she can
resolve a Claim based on written filings and/or a conference call. However, any inperson arbitration hearing must be held at a place reasonably convenient to you.
What about appeals?
Very limited
Appeal rights under the FAA are very limited. The TPA's decision will be final and
binding, except for any FAA appeal right. Any appropriate court may enter judgment
upon the arbitrator's award.
Do arbitration awards affect other disputes?
No
No arbitration award involving the parties will have any impact as to issues or claims in
any dispute involving anyone who is not a party to the arbitration, nor will an arbitration
award in prior disputes involving other parties have any impact in an arbitration between
the parties to this Clause.

ARBITRATION FEES AND AWARDS.

Question
Short Answer
Futher Detail

Who bears arbitration fees?
Usually, we do
We will pay all filing, administrative, hearing and TPA fees if you act in good faith,
cannot get a waiver of such fees and ask us to pay.
When will we cover your legal fees and costs?
If you win
If you win an arbitration, we will pay your reasonable fees and costs for attorneys,
experts and witnesses. We will also pay these amounts if required under applicable law
or the arbitration company's rules or if payment is required to enforce this Clause. The
TPA shall not limit his or her award of these amounts because your Claim is for a small
amount.

Will you repay us for arbitration or attorneys' fees?
Only for bad faith
The TPA can require you to pay fees incurred by us if (and only if): (1) the TPA finds
that you have acted in bad faith (as measured by the standards set forth in Federal Rule
of Civil Procedure 11(b)); and (2) this power does not make this Clause invalid.
Can a failure to resolve a Claim informally result in a larger recovery for you?
Yes
You are entitled to an arbitration award of at least $5,000 if: (1) you give us notice of a
Claim on your own behalf (and not on behalf of any other party) and comply with all of
the requirements of this Clause (including the requirements described in response to
the question reading "What must a party do before starting a lawsuit or arbitration?)";
and (2) the TPA awards you money damages greater than the last amount you
requested at least ten days before the arbitration commenced. This is in addition to the
attorneys' fees and expenses (including expert witness fees and costs) to which you are
otherwise entitled. This $5,000 minimum award is a single award that applies to all
Claims you have raised or could have raised in the arbitration. Multiple awards of
$5,000 are not contemplated by this Clause. Settlement demands and offers are strictly
confidential. They may not be used in any proceeding by either party except to justify a
minimum recovery of $5,000.
Can an award be explained?
Yes
A party may request details from the TPA, within 14 days of the ruling. Upon such
request, the TPA will explain the ruling in writing.

BILLING-ERROR RIGHTS NOTICE—EXHIBIT B
What To Do If You Think You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
WebBank, c/o Petal Card, Inc., MSC – 166931, P.O. Box 105168, Atlanta, GA
30348-5168, Attn: Billing Dispute.
You also may send us an email to support@petalcard.com with the subject line
“DISPUTE”.
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of Problem: If you think there is an error on your bill, describe
what you believe is wrong and why you believe it is a mistake.

You must contact us within 60 days after the error appeared on your statement.
You must notify us of any potential errors in writing or electronically. You may call
us, but if you do we are not required to investigate any potential errors and you
may have to pay the amount in question.
While we investigate whether or not there has been an error, the following are
true:
• We cannot try to collect the amount in question, or report you as delinquent on
that amount.
• The charge in question may remain on your statement, and we may continue to
charge you interest on that amount. But, if we determine that we made a mistake,
you will not have to pay the amount in question or any interest or other fees
related to that amount.
• While you do not have to pay the amount in question, you are responsible for
the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with
your credit card, and you have tried in good faith to correct the problem with the
merchant, you may have the right not to pay the remaining amount due on the
purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of
your current mailing address, and the purchase price must have been more than
$50. (Note: Neither of these is necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that sold you the
goods or services.)
2. You must have used your credit card for the purchase. To the extent we offer
them, purchases made with cash advances from an ATM or with a check that
accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.If all of the criteria above are
met and you are still dissatisfied with the purchase, contact us in writing or

electronically at:
WebBank, c/o Petal Card, Inc., MSC – 166931, P.O. Box 105168, Atlanta, GA
30348-5168, Attn: Billing Dispute.
You also may send us an email to support@petalcard.com with the subject line
“DISPUTE”.
While we investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At that point,
if we think you owe an amount and you do not pay we may report you as
delinquent.
STATE NOTICES—EXHIBIT C
Residents of All States: NOTICE TO THE APPLICANT - 1. DO NOT SIGN
THIS CREDIT AGREEMENT BEFORE YOU READ IT OR IF IT CONTAINS
BLANK SPACES. 2. YOU ARE ENTITLED TO A COMPLETELY FILLED IN
COPY OF THIS CREDIT AGREEMENT AND AN EXACT COPY OF THE
PAPER YOU SIGN. 3. YOU MAY AT ANY TIME PAY MORE THAN THE
MINIMUM PAYMENT, OR YOUR ENTIRE BALANCE IN FULL WITHOUT
INCURRING ANY ADDITIONAL CHARGE FOR PREPAYMENT.
Cardmembers: Your signature (including any digital or electronic signature),
address and the date on the application, or other evidence of indebtedness, or
your acceptance of these Terms and Conditions through an electronic
transmission to us represents your signature, address and the date on these
Terms and Conditions, which are incorporated herein by reference.
Residents of All States, including California, New York, Rhode Island, Utah
and Vermont: You give us and our agents, successors, and assigns permission
to access your credit report in connection with any transaction, or extension of
credit, and on an ongoing basis, for the purpose of reviewing this Account, taking
collection action on this Account, or for any other legitimate purposes associated
with this Account. Upon your request, you will be informed of whether or not a
consumer credit report was ordered, and if it was, you will be given the name and
address of the consumer reporting agency that furnished the report. As required
by law, you are hereby notified that a negative credit report reflecting on your
credit record may be submitted to a credit reporting agency if you fail to fulfill the
terms of your credit obligations.
Residents of All States, including Iowa, Maine, Missouri, Nebraska, Oregon,

Texas, Utah and Washington: ORAL AGREEMENTS OR COMMITMENTS TO
LOAN MONEY, EXTEND CREDIT OR TO FORBEAR FROM ENFORCING
REPAYMENT OF A DEBT, INCLUDING PROMISES TO EXTEND OR RENEW
SUCH DEBT, ARE NOT ENFORCEABLE. TO PROTECT YOU (BORROWER)
AND US (CREDITOR) FROM MISUNDERSTANDING OR DISAPPOINTMENT,
ANY AGREEMENTS WE REACH COVERING SUCH MATTERS ARE
CONTAINED IN THIS WRITING, WHICH IS THE COMPLETE AND EXCLUSIVE
STATEMENT OF THE AGREEMENT BETWEEN US, EXCEPT AS WE MAY
LATER AGREE IN WRITING TO MODIFY IT.
California Residents: Married applicants may apply for separate accounts.
Delaware, Maryland and Oregon Residents: Service charges not in excess of
those permitted by law will be charged on the outstanding balances from month
to month. You may pay more than the minimum payment due, up to your entire
outstanding balance, at any time.
Idaho Residents: We will not seek to collect attorneys’ fees in situations where
the principal balance is $1000.00 or less.
Illinois Residents: (a) No applicant may be denied a credit card on account of
race, color, religion, national origin, ancestry, age, sex, marital status, physical or
mental handicap unrelated to the ability to pay or unfavorable discharge from
military service; (b) the applicant may request the reason for rejection of his or
her application for a credit card; (c) no person need reapply for a credit card
solely because of a change in marital status unless the change in marital status
caused a deterioration in the person’s financial position; and (d) a person may
hold a credit card in any name permitted by law that he or she regularly uses and
is generally known by, so long as no fraud is intended thereby.
Maryland Residents: You have the right under Section 12-510 of the
Commercial Law Code to receive an answer to a written inquiry concerning the
status of your Account. Finance charges will be imposed in amounts or at rates
not in excess of those permitted by law.
New Hampshire Residents: You shall be awarded reasonable attorney's fees if
you prevail in any legal action you bring against us or we bring against you. If you
successfully assert a partial defense, set-off or counterclaim against us in an
action we bring against you, the court or arbitrator may withhold from us the
entire amount or such portion of the attorney's fees as it considers equitable. You
or your attorney may file a complaint with the New Hampshire Commissioner of
Banking, State of New Hampshire Banking Department, 53 Regional Drive, Suite
200, Concord NH 03301. Instructions for filing complaints can be found on the

Commissioner's website at www.nh.gov/banking/consumerassistance/complaint.htm.
New Jersey Residents: Because certain provisions of the Agreement are
subject to applicable laws, they may be void, unenforceable or inapplicable in
some jurisdictions. None of these provisions, however, is void, unenforceable or
inapplicable to New Jersey residents. The section headings in this Agreement
serve as a Table of Contents and not contract terms.
New York Residents: New York residents may contact the New York State
Department of Financial Services to obtain a comparative listing of credit card
rates, fees and grace periods by calling 1-800-342-3736, or on the web at
www.dfs.ny.gov.
Ohio Residents: The Ohio laws against discrimination require that all creditors
make credit equally available to all creditworthy customers, and that credit
reporting agencies maintain separate credit histories on each individual upon
request. The Ohio Civil Rights Commission administers compliance with this law.
Washington Residents: In accordance with the Revised Code of Washington
Statutes, Section 63.14.167, you are not responsible for payment of interest
charges that result solely from a merchant's failure to transmit to us within seven
working days a credit for goods or services accepted for return or forgiven if you
have notified us of the merchant's delay in posting such credit, or our failure to
post such credit to your account within three working days of our receipt of the
credit.
Married Wisconsin Residents: If you are married: (i) you confirm that this
Account is being incurred in the interest of your marriage or family; (ii) no
provision of any marital property agreement, unilateral statement, or court decree
under the Wisconsin Marital Property Act will adversely affect a creditor's interest
unless, before the time credit is granted, the creditor is furnished a copy of that
agreement or decree or is given complete information about the agreement or
decree; (iii) you understand and agree that we will provide a copy of this
Agreement to your spouse for his or her information. If the Account for which you
are applying is granted, you will notify us if you have a spouse by sending your
name and your spouse's name and address to us at WebBank, c/o Petal Card,
Inc., MSC – 166931, P.O. Box 105168, Atlanta, GA 30348-5168.
Married Wisconsin Residents: If you are applying for individual credit or joint
credit with someone other than your spouse, and your spouse also lives in
Wisconsin, combine your financial information with your spouse's financial
information.

